                                                                                                                         July 9, 2014

The Honorable Rajiv Shah
 Administrator, U.S. Agency for International Development


Dear Administrator Shah:

At the request of Representative Jason Chaffetz, Chairman of the Subcommittee on National
Security, House Committee on Oversight and Government Reform, I am writing to request
information concerning USAID’s $175 million Incentive Fund for Afghanistan.1 To aid our review,
please provide written responses to the questions below no later than July 23, 2014.

         During his April 3, 2014, Congressional testimony, Mr. Donald “Larry” Sampler indicated that
          the funds were used as “an incentive to get the [Afghan] parliament to do the things that we
          need them to do” and to adopt programs “not politically palatable to the parliament in
          Afghanistan.”2 Mr. Sampler’s remarks have prompted questions about the purpose of the
          TMAF incentive funds program, its methodology, and its execution. Will USAID please clarify
          Mr. Sampler’s remarks regarding the incentive funds program?

         Please explain the relationship between the $175 million used for the incentive funds
          program and the TMAF. Is the $175 million part of the funding pledged at the 2012 Tokyo
          donor meeting or are they separate?

         Are there existing U.S. bilateral incentive-funds programs in Afghanistan upon which the
          TMAF bilateral incentive program is modeled? If so, were these programs effective in bringing
          about their desired outcomes? If there is no bilateral incentive program precedent in
          Afghanistan, are there similar cases and evaluations of U.S. bilateral incentive programs in
          other countries? If so, please detail.

         What is the basis for the $175 million figure used and how was that amount determined?
          Why are these funds allocated in two tranches ($75 million in FY 2012 funds for Tranche I
          and $100 million in FY 2013 funds for Tranche II)?

         Why did Tranche I money (for a program executed in FY 2014) come from FY 2012 funds and
          why will Tranche II money come from FY 2013 funds? Were the FY 2012 funds in danger of
          expiring?



1USAID has also referred to this fund as the Tokyo Mutual Accountability Framework (TMAF) bilateral incentive fund. See USAID Fact
Sheet – Tokyo Mutual Accountability Framework (TMAF) Bilateral Incentive Fund.
2 See Afghanistan: Identifying and Addressing Wasteful U.S. Government Spending: Hearing before the Subcomm. On National Security of
the H. Comm. On Oversight and Government Reform, 113th Cong. (2014), at statement of Donald “Larry” Sampler, Assistant to the
Administrator, Office of Afghanistan and Pakistan Affairs, USAID, available at http://oversight.house.gov/hearing/afghanistan-identifying-
addressing-wasteful-u-s-government-spending/
        How were Tranche I benchmarks determined to have been met or not met when deciding to
         disburse funds? Please provide copies of original documentation (letters, memos, studies,
         evaluations, e-mails, etc.) including:
             o Communications with Afghan government officials when designing the TMAF bilateral
                 incentive fund program
             o USAID’s evaluation of Afghan progress toward fulfilling the incentive program’s
                 requirements and Afghan concurrence or disagreement with U.S. evaluation
             o Information and evidence provided by Afghans on progress toward meeting incentive
                 program benchmarks
             o Specific procedures used by USAID to verify Afghan progress in each Hard Deliverable
                 area, and the development and methodology of the USAID verification process
             o USAID’s reasoning behind whether the Hard Deliverables were met or not
             o Afghan responses to final USAID determinations

        USAID’s Fact Sheet for the TMAF Bilateral Incentive Fund states that withheld funds are
         reallocated to “other U.S. government priorities for Afghanistan that do not involve direct
         assistance to the Afghan Government.” Please list the projects, programs, or multilateral
         instruments that received the withheld Tranche I funds, if any.

        Will the $100 million allocated in Tranche II be directed to the same five Hard Deliverable
         areas as Tranche I? If so, please provide a planned or anticipated breakdown of funding
         allocations by Hard Deliverable area. If the structure of Tranche II is pending negotiation with
         the new Afghan government, please provide the desired thematic categories, benchmarks,
         and qualifying standards for funding allocations, as well as the Afghan agencies that would
         be responsible for implementing reforms in each category.

        Are additional tranches planned after Tranche I and II? Are other programs being considered
         that build upon this model?

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended. Should you have any questions or concerns,
please contact Mr. Jack Mitchell, Director, Office of Special Projects, at            or
                                .


                                                                 Sincerely,




                                                                 John F. Sopko
                                                                 Special Inspector General
                                                                   for Afghanistan Reconstruction


Attachment:       I – Congressional Letter from the Subcommittee
                  on National Security to Inspector General John Sopko



SIGAR-14-79-SP Inquiry Letter: USAID Incentive Funds                                               Page 2
ATTACHMENT I: CONGRESSIONAL LETTER FROM THE SUBCOMMITTEE ON
NATIONAL SECURITY TO INSPECTOR GENERAL JOHN SOPKO




SIGAR-14-79-SP Inquiry Letter: USAID Incentive Funds          Page 3
SIGAR-14-79-SP Inquiry Letter: USAID Incentive Funds   Page 4
